United States Department of Agriculture
Office of Inspector General




Analysis of Supplemental Nutrition
Assistance Program (SNAP)
Anti-Fraud Locator EBT Retailer
Transactions (ALERT) Database




                                          Audit Report 27002-0001-DA
                                          November 2011
                            United States Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250




DATE:         November 22, 2011

AUDIT
NUMBER:       27002-0001-DA

TO:           Audrey Rowe
              Administrator
              Food and Nutrition Service

ATTN:         Mark Porter
              Acting Director
              Office of Internal Control, Audits and Investigations

FROM:         Gil H. Harden
              Assistant Inspector General for Audit

SUBJECT:      Analysis of Supplemental Nutrition Assistance Program (SNAP)
              Anti-Fraud Locator EBT Retailer Transactions (ALERT) Database


The report presents the results of our audit of the Anti-Fraud Locator EBT (electronic benefits
transfer) Retailer Transactions (ALERT) database. The response from the Food and Nutrition Service
(FNS) is included in its entirety in an exhibit in this report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our audit
fieldwork and subsequent discussions.

Attachment

cc: (w/attachment)
Director, Planning and Accountability Division, OCFO
Table of Contents

Executive Summary .................................................................................................1
Background & Objectives .......................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................3
Section 1: ALERT File Control Management Needs Strengthening .................4
   Finding 1: FNS needs documented procedures for its file control
   management ..........................................................................................................4
         Recommendation 1 ........................................................................................5
         Recommendation 2 ........................................................................................5
Scope and Methodology...........................................................................................7
Abbreviations ...........................................................................................................8
Agency’s Response ...................................................................................................9
Analysis of Supplemental Nutrition Assistance Program ALERT
Database – 27002-0001-DA

Executive Summary

In order to fulfill the Department of Agriculture’s mission to form a national safety net against
hunger, the Supplemental Nutrition Assistance Program (SNAP), formerly called the Food Stamp
Program, provides monthly food assistance and nutrition for low-income individuals. The Food and
Nutrition Service (FNS) administers SNAP through a Federal-State partnership in which the Federal
Government pays the full cost of recipient benefits and shares the cost of administering the program
with the States. To search for signs of fraud, waste, and abuse within the program, FNS tracks
SNAP recipient transactions, or electronic benefits transfer (EBT) transactions, using the Anti-
Fraud Locator EBT Retailer Transactions (ALERT) system. In order to determine which States
might be at high-risk for fraud, we requested complete EBT transaction files used to populate
FNS’ ALERT system for all 53 States and territories from August 2009 to April 2011. When we
received the files, we found that while most files were present, they were incomplete and
disorganized.

Specifically, of the 19,345 files from 53 States and territories, FNS was unaware that 75 files
from 18 States were missing. We also found duplicate files, and different files with the same
names. This occurred because although FNS backs up its EBT transaction files regularly, the
agency did not have processes in place to check for missing data or to consistently manage
multiple versions of files. Because of this, gathering all the files took almost three months.
After working with FNS, we noted that FNS has already begun to address weaknesses in its
archival process; with strengthened controls, FNS can further improve its backup data
management. FNS’ archive files are used to repopulate the ALERT database in emergency
situations and are used for investigation and audit purposes; it is therefore crucial that the data
they contain are accessible at all times.

Recommendation Summary
In this report, we issued two recommendations to strengthen controls. We recommended that
FNS establish documented procedures to comprehensively check for missing files prior to
archival, and establish standard naming and organization conventions to differentiate the most
recent and accurate data.

Agency Response
FNS concurs with the recommendations and has begun taking steps to strengthen system
controls. By June 30, 2012, FNS plans to complete ALERT system redesigns, system upgrades,
data storage and archival processes documentation, and establish a process for standardized file
naming.




                                                                 AUDIT REPORT 27002-0001-DA           1
OIG Position

We concur with the agency’s response and have reached management decision for the two
recommendations in this report.




2    AUDIT REPORT 27002-0001-DA
Background & Objectives

Background
In order to fulfill the Department of Agriculture’s mission to provide a national safety net against
hunger, the Supplemental Nutrition Assistance Program (SNAP), formerly called the Food
Stamp Program, provides monthly food assistance and nutrition for low-income individuals.
SNAP helps low-income families buy nutritious foods by providing them with benefits that can
be redeemed at FNS-authorized stores.1 The Food and Nutrition Service (FNS) administers
SNAP through a Federal-State partnership in which the Federal Government pays the full cost of
recipient benefits and shares the cost of administering the program with the States.

FNS replaced paper benefits with EBT cards, which recipients use like bank cards to purchase
food. Each State hires a contractor, or EBT processor, to process and store EBT transactions.
Each time an EBT card is used, EBT processors store transactional data within their system.
Before authorizing a transaction, the EBT processor’s system verifies that benefits are available
and deducts the benefits from the recipient’s account for each completed transaction.

In order to ensure that critical fraud-detection data are reliable and available, Federal regulation
requires that State agencies maintain issuance, inventory, reconciliation, and other accountability
records for a period of 3 years, though this period may be extended at the written request of
FNS.2 The State often delegates this responsibility to the EBT processors. EBT processors store
transaction information—such as the store’s identification number, the store’s location, and sales
data—in EBT transaction files and transfer them to FNS on a monthly basis.3 FNS then inputs
these files into ALERT and archives the files to DVDs monthly.

ALERT includes processes that are used to analyze EBT transactions contained in the EBT
transaction files to uncover patterns indicative of fraud—such as high volumes of transactions in
a short period of time. These processes are executed for each State. Once ALERT has searched
each store for these patterns, ALERT assigns each store a score which reflects the likelihood that
the store is engaged in fraud, with those stores showing suspicious patterns ranking highest.
FNS officials consider ALERT to be a highly valuable tool for identifying potential retailer
fraud. FNS, State agencies, the Office of Inspector General (OIG), and other entities use ALERT to
identify potentially fraudulent activities committed by retailers and recipients.

Objectives
We conducted this audit to review FNS’ management of SNAP EBT transaction files and to
determine if the SNAP EBT transaction files obtained from FNS were complete.

1
  “Stores” and “retailers” include grocery stores, supermarkets, meal services, farmer’s markets, etc. Although we
use the terms “store” and “retailer” in this report, we extend this term to other types of organizations, such as
wholesalers, meal services, and group living arrangements. As stated in 7 CFR § 278.1(a), FNS approves retailers
and stores for SNAP participation.
2
  7 C.F.R. §272.1(f)
3
  7 C.F.R. §274.4 (b)(2)

                                                                          AUDIT REPORT 27002-0001-DA                 3
Section 1: ALERT File Control Management Needs Strengthening

Finding 1: FNS needs documented procedures for its file control management
We found that while FNS’ data archival management system is largely successful in storing data
files, files were occasionally missing, and were generally incomplete and disorganized. When
working with FNS to resolve this issue, we found that FNS had not implemented a system to
check that all files were available during archival or to effectively manage duplicate files or file
names. Because FNS staff was unable to consistently organize, manage, or backup EBT files,
when we requested a full set of EBT transaction files from FNS, it took the agency nearly three
months to provide us with complete records. Quick, reliable access to archival files is necessary
should the ALERT system go down, or in cases of audits or investigations, when the data
become critical in the search for fraud, waste, and abuse.

Under Office of Management and Budget (OMB) A-123, Federal agencies are required to have a
clear, organized strategy with well-defined documentation processes that contain an audit trail
and verifiable results, and specify document retention periods.4 Additional controls, such as
checks, should be designed to ensure that transactions are properly authorized and processed
accurately, and that the data are valid and complete. To ensure secure, reliable records, FNS’
internal policy states that the agency will archive files received from EBT processors onto DVDs
and place them in an on-site file cabinet.5 The National Institute of Standards and Technology
(NIST) also states that information system security policies should generally include
organizational standards that specify uniform procedures and ensure the availability of resources
through recovery and backups.6

We found that though FNS archived EBT transaction files at the required intervals, not all files
were located on the DVDs. For instance, when we requested the complete set of files for the
year—19,345 files from 53 States and territories—FNS was unaware that 75 files from 18 States
were not provided. FNS was able to provide 56 of the missing 75 files but was unable to locate
the remaining 19 files. OIG acknowledges that this is a low error rate; however, we also noted
that FNS could further improve its archival process by taking two relatively simple steps—
performing manual checks to identify missing files and formalizing its naming and organization
conventions.

We found that the primary cause of missing files is that FNS’ data management system does not
inform FNS of all missing files prior to archival and does not take additional measures, such as
manually verifying that all files are present. We found that manual checks remedy this problem.
During three months of repeated OIG requests and manual checks, FNS showed continual
progress and was ultimately able to provide OIG with a complete set of EBT transaction files.
Independent of our review, FNS has taken steps to address additional backup issues. Recently,


4
  OMB Circular A-123, Management's Responsibility for Internal Control, December 2004, Section I.A.
5
  System Security Plan for Anti-Fraud Locator using EBT Retailer Transaction (ALERT) Application,
March 9, 2011.
6
  NIST Special Publication 800-42, Guideline on Network Security Testing, October 2003, Section 3.11.

4     AUDIT REPORT 27002-0001-DA
FNS purchased a large external hard drive for easy access to files for future data requests and
automated various manual processes to reduce human error. We encourage FNS to also develop
guidance for staff to check that all EBT transaction files are archived.

As we collected files, we determined that FNS’ archival process could also be improved with the
adoption of uniform naming conventions and organization standards. For example, FNS seemed
unfamiliar with its backup organization system; for instance, FNS stated that it found missing
files in a short-term backup system that had previously been unknown to them.7 We also found
files from multiple States and days with the same name and size, but different creation dates.
We also noted that there were several files with incorrect or misleading names, making it
difficult to determine which files contained the correct information. This occurred because FNS
does not have a system—such as standard naming conventions or a specified location to store the
correct files—to differentiate the most recent and accurate data. While such an organization
system or standards is not required, we believe that implementing a standard organization would
help FNS ensure data integrity and maintain auditable records.

Once we identified these issues, we worked with FNS officials to formulate a plan to resolve
them. FNS agreed to document and modify its processes to ensure the integrity of its files, and
stated that our file request helped the agency discover internal control areas needing
improvement. OIG acknowledges that FNS has already taken important steps towards
eliminating these problems, and recommends that the agency take the following additional steps
to complete the process.

Recommendation 1
Establish a documented procedure to comprehensively check for missing files prior to archival.

Agency Response
FNS concurred with this recommendation and plans to eliminate the identified problems by
June 30, 2012. FNS will complete ALERT system redesigns, which include system upgrades
and data storage and archival processes documentation.

OIG Position
We concur with the agency’s response for the recommendation and have reached management
decision.

Recommendation 2
Establish standard naming and organization conventions to differentiate the most recent and
accurate data.



7
    The system short term backup is kept for a limited timeframe and should not be relied on as a primary backup.

                                                                            AUDIT REPORT 27002-0001-DA              5
Agency Response
FNS concurred with this recommendation. FNS will develop standard file naming conventions
for the ALERT file archiving process and improve EBT file management documentation during
the redesign of the ALERT system. FNS will complete the ALERT system redesign by
June 30, 2012.

OIG Position
We concur with the agency’s response for the recommendation and have reached management
decision.




6    AUDIT REPORT 27002-0001-DA
Scope and Methodology
Our review focused on obtaining all EBT transaction files used to populate ALERT from all 53
States and territories so we could analyze SNAP database data for anomalies and signs of fraud,
waste, and abuse. We conducted fieldwork at the FNS national office located in Alexandria,
Virginia, from June 2010 through July 2011.

We selected the timeframe of August 1, 2009 to July 31, 2010 because, at the time of our audit, it
was the latest full year of information available. Because we had concerns regarding FNS’
management of EBT transaction files, we expanded our scope to April 2011. To obtain and
evaluate all EBT transaction files we:

   ·   Reviewed public laws, FNS regulations, policies, procedures, and other controls
       governing the administration of data used to populate ALERT;
   ·   Reviewed reports that resulted from reviews relative to SNAP, Federal Manager’s
       Financial Integrity Report for fiscal year 2010, and Government Accountability Office
       reports;
   ·   Analyzed records, reports, correspondence, and other documents pertinent to ALERT;
       and
   ·   Interviewed officials from the FNS National office to identify controls for administering
       ALERT and assess overall management of EBT transaction files.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                              AUDIT REPORT 27002-0001-DA        7
Abbreviations

ALERT ....................... Anti-Fraud Locator EBT Retailer Transactions
EBT ............................. electronic benefits transfer
FNS ...............................Food and Nutrition Service
NIST............................ National Institute of Standards and Technology
OMB ........................... Office of Management and Budget
OIG ............................. Office of Inspector General
SNAP .......................... Supplemental Nutrition Assistance Program
USDA.......................... Department of Agriculture




8      AUDIT REPORT 27002-0001-DA
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0001-DA   9
United States
Department of
Agriculture      DATE:         November 3, 2011
Food and
Nutrition        AUDIT
Service          NUMBER:        27002-01-DA

3101 Park        TO:            Gil H. Harden
Center Drive
Room 712                        Assistant Inspector General for Audit
Alexandria, VA
22302-1500       FROM:         Audrey Rowe /S/
                               Administrator
                               Food and Nutrition Service

                 SUBJECT:      Analysis of Supplemental Nutrition Assistance Program ALERT Database


                 This letter responds to the official draft report for audit report number 27002-01-DA,
                 Analysis of Supplemental Nutrition Assistance Program ALERT Database. Specifically,
                 the Food and Nutrition Service (FNS) is responding to the two recommendations within
                 the report.

                 OIG Recommendation 1:

                 Establish a documented procedure to comprehensively check for missing files prior to
                 archival.

                 Food and Nutrition Service Response:

                 FNS concurs with the stated recommendation and has already begun taking the necessary
                 steps to eliminate the problems noted in the report. FNS is currently redesigning the
                 ALERT system, which includes upgrades and documentation of the data storage and
                 archival processes. This recommendation will be addressed with the delivery of the
                 ALERT system, currently scheduled for June 2012.

                 Estimated Completion Date: June 30, 2012

                 OIG Recommendation 2:

                 Establish standard naming and organization conventions to differentiate the most recent
                 and accurate data.

                 Food and Nutrition Service Response:

                 FNS concurs with the stated recommendation and will continue the work already done
                 towards developing a standard naming convention, process for archiving ALERT files and
                                                                                  P age |2


will also improve how our file management system is documented. This recommendation
will be addressed with the delivery of the ALERT system, currently scheduled for June 2012.

Estimated Completion Date: June 30, 2012




                              AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
